BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Reply Brief
in 19-1039, PennEast Pipeline Company, LLC v. State
of New Jersey, et al., were sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent Next
Day and e-mail service to the following parties listed
below, this 16th day of April, 2021:
Jeremy M. Feigenbaum
Office of the New Jersey Attorney General
25 Market Street
P.O. Box 112
Trenton, NJ 08611
(609) 984-3900
jeremy.feigenbaum@njoag.gov

Counsel for Respondents State of New Jersey, et al.
Matthew Littleton
Donahue, Goldberg, Weaver & Littleton
1008 Pennsylvania Ave. SE
Washington, DC 20003
(202) 683-6895
matt@donahuegoldberg.com
Jennifer Lynn Danis
Morningside Heights Legal Services
435 W. 116th Street
New York, NY 10027
(201) 306-3382
jld2228@columbia.ed u

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite 102

I www.beckergallagher.com

Cincinnati, Ohio 45249

Franklin Square

I Washington, DC 20005

1300 I Street, NW, Suite 400E

Edward Lloyd
Morningside Heights Legal Services, Inc.
Columbia Law School
435 West 116th Street
New York, NY 10027
(973) 495-377 4
elloyd@law.columbia.edu
Counsel for Respondent
New Jersey Conservation Foundation
Paul D. Clement
Counsel of Record
Erin E. Murphy
Kasdin M. Mitchell
Michael D. Lie berm an
Mariel A. Brookins
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
erin.murphy@kirkland.com
kasdin.mitchell@kirkland.com
michael.lieberman@kirkland.com
mariel. brookins@kirkland.com
Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 16, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Dao{)~·
o:;/6--r;;_
~

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

1

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

